December 10, 2020
Honorable Danny Bickell, Deputy Clerk
Supreme Court of the United States
Office of the Clerk
1 First Street, N.E.
Washington, D.C. 20543
Re:

James Calvert v. Texas, No. 20-701

Dear Mr. Bickell:
This is to request a thirty-day extension of time, up to and including January
20, 2021, in which to file a brief in opposition in the above-styled cause. The
Court docketed the petition for a writ of certiorari on November 20, 2020. The
undersigned was not involved in the underlying appeal but was recently asked
by Smith County District Attorney’s Office to respond to Calvert’s petition for
certiorari in this Court. This is a death penalty case, with a voluminous record,
several volumes of which are sealed and not yet available to the undersigned.
In addition, the undersigned will be out of the office for the next week to help
care for her mother while she recovers from hip replacement surgery. Thus,
the undersigned requests additional time to file the brief in opposition in the
above-styled cause. This is the first extension of time requested by the Director.
The undersigned has conferred with counsel for petitioner, David DeBruin, and
he stated that the requested extension is unopposed. Thank you for your
consideration of this matter.
Sincerely,
s/ Jennifer Morris
JENNIFER MORRIS
Assistant Attorney General
(512) 463-2991
cc:

David W. DeBruin
Julian P. SpearChief-Morris
Allison M. Tjemsland
JENNER & BLOCK LLP
P os t Of fic e Box 12548 , Aust in , Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. texa satto r neyg eneral .go v

1099 New York, Ave., NW, Ste. 900
Washington, DC 20001
ddebruin@jenner.com
Douglas H. Parks
321 Calm Water Ln.
Holly Lake Ranch, TX 75765
Bina M Peltz
JENNER & BLOCK LLP
919 Third Ave.
New York, NY 10022

P os t Of fic e Box 12548 , Aust in , Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. texa satto r neyg eneral .go v

